GR-70-98-012
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Justice Programs
Fiscal Year 1996 Rural Domestic Violence and
Child Victimization Enforcement Grant to the
Vermont Center for Crime Victim Services
Grant Number 96-WR-NX-0007
GR-70-98-012
 
July 10, 1998
 
* * * * *
EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grant
number 96-WR-NX-0007 awarded by the U.S. Department of Justice, Office of Justice Programs
to the Vermont Center for Crime Victim Services (Vermont Center). The Vermont Center
received a grant of $659,385 to combat rural domestic violence. The grant project period
was October 1, 1996 to September 30, 1998. The purpose of the grant program is to create
protocols and strategies tailored specifically to combat violence against women and
children in rural communities. As of March 31, 1998, the grantee had expended $344,338 of
the grant funds.
Our audit concentrated on, but was not limited to, the period October 1, 1996 through
September 30, 1998. We tested the accuracy and reliability of the grantee's accounting
system, reviewed the general ledger, and evaluated the allowability, allocability, and
reasonableness of costs.
For purposes of this review, we used: the Office of Management and Budget (OMB)
Circular A-110, Grants and Agreements with Institutions of Higher Education and Other
Nonprofit Institutions; OMB Circular A-122, Cost Principles for Nonprofit
Organizations; the OJP Financial Guide for the administration of grants; and
the OJP Guideline Manual M7100.1D.
Based on our audit, we found that the Vermont Center properly managed the grant in
that:


the grant objectives outlined in the application were being achieved,


financial status reports and progress reports were submitted as required by the grant,
    and


sub-grantees were monitored as required.

We also identified financial weaknesses which are described with our other results in
detail in the Findings and Recommendations section of the report. Our scope and
methodology appear in Appendix II.
#####